<html>
<title> - DEVELOPMENT FINANCE IN ASIA: U.S. ECONOMIC STRATEGY AMID CHINA'S BELT AND ROAD</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





 DEVELOPMENT FINANCE IN ASIA: U.S. ECONOMIC STRATEGY AMID CHINA'S BELT 
                                AND ROAD

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 15, 2017

                               __________

                           Serial No. 115-101

                               __________

        Printed for the use of the Committee on Foreign Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

27-552PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
VACANT

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                     TED S. YOHO, Florida, Chairman
DANA ROHRABACHER, California         BRAD SHERMAN, California
STEVE CHABOT, Ohio                   AMI BERA, California
TOM MARINO, Pennsylvania             DINA TITUS, Nevada
MO BROOKS, Alabama                   GERALD E. CONNOLLY, Virginia
SCOTT PERRY, Pennsylvania            THEODORE E. DEUTCH, Florida
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
ANN WAGNER, Missouri



















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Daniel F. Runde, William A. Schreyer Chair and director of 
  the Project on Prosperity and Development, Center for Strategic 
  and International Studies......................................     6
Mr. Roy Kamphausen, senior vice president for research, The 
  National Bureau of Asian Research..............................    21
The Honorable Jonathan N. Stivers, commissioner, U.S.-China 
  Economic and Security Review Commission (former Assistant 
  Administrator, Bureau for Asia, U.S. Agency for International 
  Development)...................................................    34

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ted S. Yoho, a Representative in Congress from the 
  State of Florida, and chairman, Subcommittee on Asia and the 
  Pacific: Prepared statement....................................     4
Mr. Daniel F. Runde: Prepared statement..........................     9
Mr. Roy Kamphausen: Prepared statement...........................    24
The Honorable Jonathan N. Stivers: Prepared statement............    37

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63
Mr. Daniel F. Runde: Material submitted for the record...........    64
Written responses from the witnesses to questions submitted for 
  the record by the Honorable Brad Sherman, a Representative in 
  Congress from the State of California..........................    65

 
                      DEVELOPMENT FINANCE IN ASIA:
                      U.S. ECONOMIC STRATEGY AMID
                         CHINA'S BELT AND ROAD

                              ----------                              


                      WEDNESDAY, NOVEMBER 15, 2017

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:45 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ted Yoho 
(chairman of the subcommittee) presiding.
    Mr. Yoho. Hello, everybody. The subcommittee will come to 
order.
    Members present will be permitted to submit written 
statements to be included in the official hearing record.
    Without objection, the hearing record will remain open for 
5 calendar days to allow statements, questions, and extraneous 
material for the record, subject to length limitations in the 
rules.
    Good afternoon, and thank you to my colleagues on the 
subcommittee and the panel for coming together to discuss the 
future of U.S. economic engagement. And I have to give a shout 
out to Mr. Engel, the ranking member. He is in Financial 
Services, and they have 15 votes teed up, ready to go, so he 
will be here as soon as he can.
    President Trump has just returned from his first trip to 
the Asia-Pacific, a region the White House has taken to calling 
the Indo-Pacific region. The long trip, which began on November 
3, is the longest trip to Asia by an American President in more 
than 25 years and a fitting reminder of the importance of the 
region to American interests.
    Going forward, the trip will surely be an inflection point 
for the U.S. policies toward the region. One of the most 
important aspects of this policy will be our economic 
engagement, which is what we have gathered to discuss here 
today.
    The discussion about U.S. economic engagement in Asia 
frequently centers on trade, but the Asia-Pacific is still a 
developing region, and too often the discussion does not give 
sufficient attention to what the United States must do before 
the important development and trade promotion work that is a 
precursor to robust trading relationships.
    The United States already has the tools needed for this 
important work. U.S. development finance institutions--OPIC, 
the Overseas Private Investment Corporation; the USTDA, which 
is the U.S. Trade and Development Agency; and others--leverage 
private investment to promote development and economic activity 
abroad.
    These institutions are increasingly important because their 
work is in line with a larger tectonic shift in how capital 
moves in the developing world. Over the last few decades, 
private capital has outstripped assistance from donor 
governments to constitute 90 percent of financial flows into 
developing countries. Deepening U.S. development finance 
authorities will make foreign assistance more effective by 
working with this trend rather than against it.
    A model focused on public-private partnerships would also 
be more sustainable in times of budgetary constraints. 
Development finance institutions frequently operate at little 
or no cost. OPIC remitted $239 million to the U.S. Treasury in 
fiscal year 2016.
    And, finally, a development-finance-based approach is 
rooted in U.S. national interests as well, promoting U.S. 
business abroad and opening up new export opportunities for 
U.S. industries.
    Despite these advantages, development finance is 
consistently undervalued as a part of overall development 
assistance strategy. To begin to remedy this, I have introduced 
the Economic Growth and Development Act, which would create a 
one-stop shop for private-sector participation in overseas 
development, and I am currently working on more expansive 
legislation that would consolidate, reform, and improve U.S. 
development finance mechanisms.
    I hope that the panel will share with us today their own 
recommendations for improving our development finance efforts.
    While U.S. economic engagement in Asia adjusts, China's 
economic engagement strategy, known as ``One Belt, One Road,'' 
or, more recently, the ``Belt and Road Initiative,'' is well 
underway. The Belt and Road Initiative itself is a development 
finance undertaking--a multitrillion-dollar response to the 
substantial unmet infrastructure needs of the Asia-Pacific 
region, designed to build roads, bridges, ports, and other 
infrastructure across Eurasia and the Pacific and Indian Oceans 
to increase China's economic connectivity with the nations who 
have joined.
    While infrastructure investment is desperately needed 
across the region, there is more to the Belt and Road 
Initiative than meets the eye. Though China has promoted the 
program as generous ``win-win'' assistance to its fellow 
developing nations, the Belt and Road seems motivated primarily 
by self-interest.
    Belt and Road projects are financed by Chinese institutions 
at high rates not typically found in the development context, 
conducted by Chinese corporations that are often state-owned 
enterprises, utilize Chinese labor and material, and seem to 
add little to local economies and can bring unsustainable debt 
burdens.
    The program also seems too closely aligned with China's 
strategic and military interests to be more than just mere 
coincidence. In one illustrative example, China built an 
economically unviable port in the hometown of Sri Lanka's 
corrupt former leader, converted its interest to equity when 
Sri Lanka could not service the resulting debt, and now owns a 
port along its maritime energy supply route through the Indian 
Ocean.
    In contrast, U.S. development finance efforts can offer an 
alternative that is healthier for the region while furthering 
our own interests. U.S. programs have the high standards and 
transparency that Belt and Road projects often lack and are 
demand-driven by market forces, not state-owned corporations 
and military strategists.
    So, as we discuss U.S. development finance in Asia today, 
it will be helpful to do so in the context of China's Belt and 
Road Initiative. And I hope the panel can discuss how U.S. 
Efforts can counter the potential negative aspects of the Belt 
and Road Initiative.
    Without objection, the witnesses' written statements will 
be entered into the hearing record.
    And I now turn to the ranking member, Mr. Deutch. Do you 
have a comment you want to say?
    [The prepared statement of Mr. Yoho follows:]
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
 
                              ----------                              

    Mr. Deutch. I do not.
    Mr. Yoho. Okay.
    And, with that, we are thankful to be joined today by Mr. 
Daniel F. Runde, the Schreyer chair and director of the Project 
on Prosperity and Development at the Center for Strategic and 
International Studies; Mr. Roy Kamphausen, senior vice 
president for research at the National Bureau of Asian 
Research; and the Honorable Jonathan N. Stivers, a Commissioner 
of the U.S.-China Economic and Security Review Commission and 
former Assistant Administrator to the USAID bureau for Asia.
    And, with that, we are going to start with your 
testimonies. You guys know how the buttons work and the timers 
and all that? That is good.
    Mr. Runde, if you will, let's hear your testimony. Thank 
you.

STATEMENT OF MR. DANIEL F. RUNDE, WILLIAM A. SCHREYER CHAIR AND 
 DIRECTOR OF THE PROJECT ON PROSPERITY AND DEVELOPMENT, CENTER 
            FOR STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Runde. Thank you, Chairman Yoho, Ranking Member 
Sherman, and distinguished members of the subcommittee. Thank 
you for inviting me to testify before you today.
    I hope to use my time to talk about two things: First, the 
changed world in which we find ourselves, especially in Asia. 
Simply put, China is eating our economic and diplomatic lunch 
in Asia. Second, the critical role that enhanced U.S. 
development finance capabilities can play in countering Chinese 
economic influence as part of a larger U.S. economic strategy 
for Asia. We need to take a series of concrete steps, as the 
American Government, so that we can continue to lead and have 
an ability to shape the future.
    My bottom line is that the Congress can take a series of 
steps to strengthen OPIC and other bilateral and multilateral 
instruments of American power. Congress should spend its 
limited political and policy time on strengthening and 
reforming the institutions we already have, including 
multilateral institutions, and take USAID's Power Africa model 
and apply it to different sectors in Asia, including power and 
infrastructure. I believe the United States will get much more 
benefit out of a reformed and strengthened OPIC compared to a 
merger of government offices and agencies.
    Let me talk about change to Asia. While recognizing the 
great diversity across the continent, it is safe to say this is 
not your grandparents' Asia. Asia is much freer, is more 
interested in trade and foreign direct investment, is rapidly 
urbanizing and aging, needs to close a massive infrastructure 
deficit, and wants a deeper partnership with the United States 
around science, technology, and innovation. We need different 
approaches in Asia.
    We also need to understand what China is doing, because 
China is a full-fledged soft-power competitor to the United 
States. China has over 3 million young people joining its 
workforce every year. Employing so many young people every year 
is a real issue for China. China's need for jobs and access to 
alternate trade routes has necessitated the creation of a new 
model on different terms, one built on quick, one-stop-shop 
financing and one that leverages its state-owned enterprises.
    China also has displayed a willingness to periodically 
overlook human rights, environmental or social standards in the 
way that it approaches these things.
    The One Belt, One Road initiative is a prime example of a 
Chinese effort that leverages all aspects of this model 
described above. It is also, frankly, a good idea. Recreating 
the old Silk Road land roads, cutting transit times for goods 
and services, would be an economic boon. We cannot stop One 
Belt, One Road, nor should we. The United States and its allies 
should instead seek to influence the soft infrastructure of One 
Belt, One Road. And I have submitted some documents for the 
record about that.
    Let me move to development finance. Let me first define 
``development finance institutions.'' Development finance 
institutions are government or quasi-government institutions 
that provide equity, loans, or other financial support for 
private-sector projects in low- and middle-income countries. 
The Overseas Private Investment Corporation is the United 
States' DFI. DFIs are not a solution to all of our challenges 
in Asia, but they must be part of a larger economic and 
political strategy for Asia and the developing world.
    DFIs are powerful and precise development tools, and DFIs 
are one reason that there has been a massive expansion of cell 
phones, for example, in Africa and Asia. In the late 1990s, no 
normal investor believed that there was a mass consumer market 
for cell phones. DFIs provided the capital and provided a 
demonstration effect that others could make money in the 
African cell phone sector.
    As I said, though, DFIs are not a solution for every 
problem, and they cannot do things that grants or technical 
advice or diplomacy can do. DFIs usually need a private-sector 
sponsor, a business partner. They provide money in the form of 
a loan. They sometimes take a minority ownership position or 
provide highly specialized advice.
    DFIs need clear rules of the game. They need some level of 
security and a functioning state. There are things that USAID 
and MCC provide that DFIs can't, and there are things that USTD 
and export credit agencies like U.S. Ex-Im Bank provide that 
DFIs cannot.
    So what are we to do about all this? Well, I think there 
are several things this Congress should be doing. The first is 
that the Congress should ask the administration to produce a 
U.S. economic strategy to go with our national security 
strategy.
    Second, I would recommend that the Congress work with the 
administration to provide the following enhanced instruments 
for OPIC: OPIC is not permanently authorized. It ought to go to 
a 10-year authorization. Congress needs to raise OPIC's ceiling 
of total investments that it can make. It is currently $29 
billion; it should go to $58 billion. OPIC ought to be able to 
keep some of its profits.
    OPIC ought to create a funding stream for early-stage 
financing for innovators and entrepreneurs in developing 
countries. We should dilute or remove the U.S.-content 
requirement, especially in U.S. national-security-priority 
countries. OPIC needs a limited amount of what is called equity 
authority--basically, the ability to make minority ownership 
stakes in a small number of projects.
    And OPIC should dilute or even remove its so-called carbon 
cap. This carbon cap puts a limit on carbon emissions related 
to the totality of the projects financed by OPIC. President 
Trump was just in Vietnam and talked about doing more projects 
in Vietnam with OPIC. The carbon cap will hold back OPIC's 
ability to work in Vietnam and other countries that are not the 
poorest of the poor.
    Development finance capabilities will only get us so far; 
we need to do a lot more in trade. I know this is important to 
you, Chairman. We need to make sure that the trade facilitation 
agreement gets done in Asia. We need to provide the money for 
it in the 150 account and then that AID and our diplomats at 
the State Department follow through on that. That is a win-win 
for the United States and for developing countries.
    Fourth, regarding AID--and I know I am running out of 
time--that we should take lessons from the Obama-era's Power 
Africa and apply it to Asia. We also need a strategy for 
exiting middle-income countries. And I would encourage AID to 
return to the use of enterprise funds.
    Regarding TDA, it is one of the best and most efficient 
agencies in the U.S. Government. It does a series of things, 
highly leverages its money. But I would seek a larger 
congressional appropriation for TDA. I would not merge it with 
OPIC for a series of reasons, in that they don't overlap almost 
at all. I can answer questions about that.
    Six, regarding the U.S. Ex-Im Bank, we need a fully 
functioning Ex-Im Bank. It is completely absurd that we don't 
have a functioning Ex-Im Bank. Currently, you can only approve 
deals of only $10 million. There is currently $30 billion in 
U.S. Ex-Im Bank applications waiting right now. This is crazy.
    Seventh, our bilateral agencies and our multilateral 
agencies need to move much more quickly and in a coordinated 
way. Japan's aid agency and its DFI have reduced their door-to-
door approval of infrastructure projects to 11 months in 
response to AIIB and the Chinese, and so should we.
    Eighth--and I will stop here--with regard to multilateral 
development banks, we need to rethink about how we use the 
Asian Development Bank and the World Bank. The Asian 
Development Bank is a great asset to the United States. If they 
were to come to us for a special capital increase, I think we 
should consider it. I believe this committee ought to consider 
doing hearings about the United States and the Asian 
Development Bank.
    I will stop there.
    [The prepared statement of Mr. Runde follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
  
                              ----------                              

    Mr. Yoho. No, I appreciate your input on that, and those 
are all great points, and I look forward to hearing more about 
that.
    Mr. Kamphausen? Is that correct?
    Mr. Kamphausen. Yes, sir.
    Mr. Yoho. Good.

  STATEMENT OF MR. ROY KAMPHAUSEN, SENIOR VICE PRESIDENT FOR 
        RESEARCH, THE NATIONAL BUREAU OF ASIAN RESEARCH

    Mr. Kamphausen. Chairman Yoho, Ranking Member Sherman, and 
distinguished members of the committee, thank you for the 
opportunity to appear today.
    I am a China guy, and so my role is to talk about the Belt 
and Road. And I am basing my comments largely on a recent 
monograph that we published at NBR, and glad to provide a copy 
to you, Mr. Chairman.
    Since the establishment of the People's Republic of China 
in 1949, the Chinese leadership has had two overwhelming 
foreign policy goals: One, the restoration of what China 
considers as its national domain and boundaries; and, two, the 
restoration of China's historical position at the center of 
Asia as the preponderant power in the region.
    These two restorations are really the heart of what 
President Xi Jinping in China has called his ``China dream'' 
for the rejuvenation of the great Chinese nation, which he 
hopes to fulfill by the 100th anniversary of the founding of 
the PRC in 2049.
    And so, understood in the light of China's longstanding 
foreign policy goals, the Belt and Road Initiative is, I 
believe, an early test case which offers us a glimpse of the 
sort of integration under Chinese-led norms that Beijing would 
like to see emerge in Eurasia.
    The Belt and Road Initiative is very important to the 
Chinese leadership. As mentioned by the chairman in his opening 
statement, more than $1 trillion has been dedicated, at least 
in principle, to funding projects. President Xi Jinping is 
personally engaged, including making an appearance at the 
multinational Belt and Road Forum in May of this year in 
Beijing. And the Belt and Road has been written into the 
Chinese Communist Party charter in the most recent 19th Party 
Congress. It tells us how important this initiative is to 
leadership.
    As an overview, the Belt and Road Initiative sets the 
general long-term direction for China and seeks to mobilize and 
coordinate the use of all available national resources--
political, economic, diplomatic, military, and ideological--to 
pursue both internal, in terms of economic development, and 
external, both strategic and national security objectives, in 
an integrated way.
    And so I would like to focus on how those three areas--
economic, security, and strategic--really come together from 
Beijing's perspective.
    On the economic side, one way to think of Belt and Road is 
as a new Chinese stimulus package, similar to that introduced 
after the 2008 global financial crisis. And it is intended to 
sustain Chinese economic growth, the development goals 
notwithstanding. The crucial difference is that, this time, the 
activity will take place outside of Chinese territory, and, in 
effect, the plan is to export some of the overcapacity that 
developed as part of the response to the 2008 global financial 
crisis.
    From a security angle, in the near term, Belt and Road has 
significant potential to increase China's military footprint in 
the region, Central Asia, and beyond in an effort to secure 
China's periphery, a central goal of the Chinese leadership. 
The geographic scope of BRI extends over regions that, 
together, form an arc of instability, where the security 
situation can be volatile due to a variety of factors, 
including ethnic and religious violence, territorial disputes, 
and destabilizing spillovers.
    And, finally, on the strategic side, the Belt and Road 
Initiative is a way to secure China's periphery, address 
internal security challenges, those which have international 
linkages--and I am thinking primarily of terrorism here--and to 
respond to the Chinese perception of a challenge from the 
United States. Chinese authorities believe that, by providing 
economic development, they will help secure China's most 
restive provinces in the west of China, which have connections 
to international terrorism originally in Central Asia.
    More broadly, at a strategic level, Belt and Road reflects 
Beijing's regional and global ambitions. It is an instrument to 
consolidate China's position at the heart of Eurasia, in a 
space where U.S. influence is rather limited. The initiative is 
intended to counter what Beijing perceives as the U.S.'s 
unacceptable containment of China off of its eastern seaboard.
    So how does the Belt and Road actually expand Chinese 
influence? Very briefly, China portrays itself as the 
magnanimous provider of public goods through development 
projects and proposes a list of possible areas for cooperation 
under the umbrella of Belt and Road and then urges other 
countries to get on board China's train of development. It 
offers material incentives in the form of investment, 
infrastructure projects, and general economic and security 
benefits to members that choose to take advantage. But, in 
return, it expects that recipient countries will tacitly agree 
not to challenge China's core interests, criticize its posture, 
or seek to change its political system.
    But there are some predatory aspects of Belt and Road, and 
I will end with these, just by ticking them off.
    First, the bidding process. It is not at all clear that 
there is any evidence of a competitive bidding process for 
projects.
    State subsidies. China's loans are, in reality, state 
subsidies for China's companies to build infrastructure with 
Chinese materials, using Chinese workers.
    Third, it is not really a development effort. Only 23 
percent of the Chinese aid funding falls under the OECD's 
definition of aid, mostly given to projects without a 
development intent and that have a grant element of under 25 
percent.
    Debt burden for host states. And the chairman referred to 
this in his opening statement. Loans can be financially 
unsustainable for poor countries--over 6 percent, in many 
cases. Sri Lanka, for example, owes 10 percent of its debt to 
China.
    Who gets the jobs? Xi Jinping has said, since Belt and Road 
was launched, more than 180,000 local jobs have been created, 
but there is no transparent record of that.
    Who gets the revenue? Revenue generation formulas from 
infrastructure projects are completely unclear. For instance, 
Pakistan will reportedly receive only about 9 percent of the 
revenues from the terminal marine operations at the new Gwadar 
Port.
    And then there is the endemic corruption, environmental 
impacts, economic leverage that China poses on countries that 
fall under the program, and so forth.
    So, in conclusion, I would submit that just because we in 
the West may not have fully grasped what Belt and Road is all 
about, it does not make the initiative foolish, unimportant, or 
doomed to fail. For now, China has the initiative, and its 
projects under Belt and Road have gained an undeniable 
momentum.
    But Beijing's plan to reshape the economic and political 
map of Eurasia is still in its early stages, and there will be 
many obstacles on the road ahead. The United States can and 
must come up with a comprehensive strategy to better defend our 
existing order in ways that serve our own national interests.
    Thank you.
    [The prepared statement of Mr. Kamphausen follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    
                              ----------                              

    Mr. Yoho. Thank you, sir.
    Mr. Stivers, if you would.

 STATEMENT OF THE HONORABLE JONATHAN N. STIVERS, COMMISSIONER, 
  U.S.-CHINA ECONOMIC AND SECURITY REVIEW COMMISSION (FORMER 
   ASSISTANT ADMINISTRATOR, BUREAU FOR ASIA, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT)

    Mr. Stivers. Thank you.
    Chairman, distinguished members of the subcommittee, thank 
you for the invitation to testify today. It is an honor to be 
back before this subcommittee, especially alongside such 
distinguished colleagues.
    Before I begin, I would like to make clear that the views I 
express today are my own and not necessarily to be attributed 
to the U.S.-China Commission.
    This morning, the bipartisan U.S.-China Economic and 
Security Review Commission, on which I serve as a Commissioner, 
submitted to Congress its 2017 annual report. The Commission is 
tasked by Congress to examine the national security and foreign 
policy implications of the U.S. trade and economic relationship 
with China.
    This year, we spent some time analyzing the One Belt, One 
Road Initiative. We conclude that China is expanding its 
presence on the world stage through both coercion and a charm 
offensive, thereby creating pockets of influence, leverage, and 
control. The charm offensive is typified by One Belt, One Road, 
which seeks to bring more than 60 countries into China's 
economic and strategic orbit.
    It is time for a new U.S. economic and development strategy 
for the Asia-Pacific region in order to effectively compete 
with China's growing influence and investment. In my view, the 
discussion about U.S. economic engagement in Asia has been 
overly focused on trade policy. This new strategy should 
prioritize development financing and our foreign assistance 
tools, some of our greatest strengths, in a strategic way, 
coordinated with our allies and partners, in order to advance 
our national interest in a stable, prosperous, and democratic 
Asia-Pacific region.
    The Asia-Pacific region, which I include India in that, is 
absolutely vital to the security and prosperity of the American 
people. It is the most dynamic and one of the youngest and 
fastest-growing regions of the world. U.S. companies invest 
more in ASEAN and its members than our investment in China, 
Japan, and India combined, and they are responsible for over 
\1/2\ million U.S. jobs and has tremendous potential for future 
U.S. exports.
    In the coming years, the countries of this region will play 
an increasingly pivotal role in world affairs. The question 
isn't whether but how the Asia-Pacific region develops, and the 
type of development will make all the difference. And there are 
different competing models out there.
    While the U.S. is consumed by a lot of other issues, China 
is not only investing in becoming a high-tech powerhouse, which 
our annual report describes in much detail, but it is also 
placing itself at the center, strategically and economically, 
of the fastest-growing region of the world.
    China's One Belt, One Road Initiative includes about $900 
billion worth of projects, mostly financed by the China 
Development Bank. The state implicitly guarantees its debt, and 
its assets dwarf those of the World Bank and other multilateral 
development banks.
    Key aspects of China's development model include: First, 
relieving China's overcapacity in its slowing industrial and 
construction sectors of its state-owned enterprises. In short, 
as has been said earlier, China builds the infrastructure with 
its own materials, its own workers, and sends the recipient 
country the bill for it later. Less planning is devoted to the 
impact or the sustainability of these projects for the country 
and its impact on the people.
    Second, expanding China's access to strategically important 
maritime and overland trade routes. Page 3 of my written 
testimony shows these routes in a nice map.
    Third, gaining influence and using its new economic 
leverage to coerce other countries.
    Fourth, taking advantage of low standards on transparency, 
leading to a higher debt burden for developing countries. And 
while the international community and this Congress pursued 
debt relief for poor countries two decades ago, China is now 
reburdening these countries with predatory loans that create 
dependence on China.
    China often uses the term ``win-win'' to describe its 
economic activities, but Asian officials sometimes joke that 
``win-win'' usually means China wins two times.
    While Asian governments generally want Chinese investment, 
they would prefer more competition and higher-quality options. 
In many cases, Chinese investment has sparked backlash because 
its development model is exclusively focused on helping China, 
and it often facilitates corruption, displaces communities, and 
harms the environment.
    It would be expensive for the U.S. to compete with China 
dollar for dollar on building infrastructure in Asia. But due 
to the limitations of China's development approach, it isn't 
necessary. The U.S. Can compete with China for fewer dollars 
and greater effectiveness if our resources are used in a 
strategic way.
    And so I would submit the following recommendations. I have 
seven of them in my written testimony, but I will mention a few 
here.
    First, economic and development assistance to the East 
Asia-Pacific region should be significantly increased. 
Currently, the region only receives 3 percent of all 
nonmilitary U.S. foreign assistance. These low levels ensure 
that efforts to compete with China and Asia are vastly 
underfunded. And making matters worse, the Trump administration 
budget request included a 46-percent cut to development 
assistance in the region.
    The best way to compete with Chinese investment is to 
provide the needed resources to increase our competitive 
advantage in what we do the best: Global health, fighting 
pandemics and infectious diseases, humanitarian assistance, 
disaster relief, food security, environment protection, 
governance and rule-of-law initiatives that promote stable 
economies and democracies. These development initiatives are 
tremendously successful, but, without the resources, we simply 
can't adequately help shape this all-important region.
    Second, the U.S. should provide stronger support for 
institutions that are best positioned to compete with China on 
infrastructure. Last week, in Asia, President Trump stated he 
would support additional infrastructure development in Asia. 
Unfortunately, these announcements are not consistent with his 
budget request, which zeroed out OPIC, reduced funding for the 
World Bank, and cut the U.S. contribution to the Japan-led 
Asian Development Bank in half.
    It is my understanding that the Trump administration is 
considering some sort of larger development financing reform, 
and I would be happy to have a discussion about that in more 
depth with my colleagues and with the Members. But, in short, I 
would say bringing our development institutions together under 
one agency that improves coordination is a lot better than 
creating yet another development agency bureaucracy with an 
independent commission.
    And then, third, as opposed to China, the U.S. has strong 
allies and partners in the Asia-Pacific, and we should double 
our development efforts to empower those counterweights, namely 
India and ASEAN. We should assist India with gaining membership 
to the Asia-Pacific Economic Cooperation Forum, support Prime 
Minister Modi's Act East policy, and help India with its own 
domestic development challenges. And, in addition, a strong and 
unified ASEAN has the potential to push back on China. And the 
U.S. can help the ASEAN Secretariat become more effective.
    And, also, on Taiwan, Taiwan has a new southbound policy as 
it seeks to diversify its economy. And Taiwan has a lot to 
bring to the table, with good development practices and a 
democratic model. We should be finding ways, consistent with 
the Taiwan Relations Act, to coordinate and utilize those 
resources for both Taiwan and the U.S.'s larger goals.
    So, in conclusion, Beijing's main advantage has been that, 
for the last two decades, the U.S. has diverted its focus from 
Asia while pursuing other challenges. The U.S. can no longer 
ignore the strategic competition that is underway in the Asia-
Pacific region. And the challenge now is for the administration 
and Congress to develop a more effective strategy to compete 
with China and make sure it has the resources to be successful.
    [The prepared statement of Mr. Stivers follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
                              ----------                              

    Mr. Yoho. I appreciate everybody's testimony. Great. You 
guys are spot-on. And I look forward to this, because it is so 
important, as you brought up.
    Mr. Stivers, you brought up how we have kind of pivoted 
from the Asia-Pacific over the last decade or so. The last 
administration had a strategic patience, where we were kind of 
just spectators on the sideline, and we can't afford to do 
that. And China has run with the One Belt, One Road Initiative. 
My records show that they have invested over $4 trillion to $5 
trillion in the last decade. And it is an investment in the 
future. You know, it is an investment in the future of their 
development and trade and things like that. We need to make 
sure that we are at the table.
    And, you know, the thing that concerns me is, after the 
19th Party Congress in China with Xi Jinping, he was quoted as 
saying, ``China should take center stage in the world,'' adding 
that ``no one should expect China to swallow anything that 
undermines its interests.''
    And we just did a codel, and we were in Vietnam, Singapore, 
and Hong Kong, and while in Hong Kong, I reiterated these 
words. And I brought up: These words sound threatening toward 
America's interests, proposing China wants to supplant 
America's leadership and knock us off the world stage. This 
will not be tolerated. If China cares to share the world stage 
with us or any other world powers, we would be willing to do 
so. And then I asked them to please convey that message to 
Beijing, which I am sure it was.
    The important thing is, their initiative, like you brought 
up and the members of the panel brought up, they are investing 
in hard assets; they haven't learned the soft power. And all 
you have to do is look at their past history, how they treated 
Hong Kong, with the 50-year transition, the agreement, they are 
not living up to that; how they treated South Korea. When South 
Korea asked to have a THAAD system for their own security, 
China retaliates against South Korea instead of North Korea and 
does economic damage to South Korea.
    The bottom line is it makes these countries--if America's 
presence is not there economically, in trade, or in military 
support, these countries are looking and they are not wanting 
to but they are going to pivot closer to China. And it is not 
just South Korea; it is the ASEAN nations.
    And we have had the privilege of meeting with all the 
Ambassadors from those nations. And it was interesting, because 
we just had our 50th year anniversary of ASEAN, our 40th year 
for involvement with that. And I asked them, why has ASEAN been 
such a successful pact? And they said it was because of 
America's leadership. And so, when coming back from this trip, 
from that region, everybody said they want us back, it is 
important that we are back, and they want to focus on trade and 
the initiatives.
    So my question is, how should the significant capital 
infusions brought to Asia by the Belt/Road Initiative affect 
our decisions in the future?
    The one thing that we can do, that I don't think China has 
quite gotten there yet, is the relationships that we build, 
that we, as we invest in the country, we want the best for that 
country, you know. And I think it has been brought up by the 
panel that, you know, it is a win-win.
    A double win for China, that was pretty good.
    But about the allocations of our development assistance, 
which would you recommend?
    And you brought up about combining these agencies. We have 
a bill that is looking at that. Mr. Kamphausen, you were 
talking about streamlining it, and our bill will streamline 
that whole process. And we will share that with you in due 
time.
    But, Mr. Stivers, what would you do different as far as our 
aid?
    Mr. Stivers. Well, in terms of a reorganization, I am not 
sure that the different development agencies need to be 
combined into one. My worry, from my standpoint and also having 
worked at USAID, is that it is so difficult to coordinate 
across agencies. Even for the State Department and USAID, it is 
a challenge to coordinate and make sure we are working from the 
same page.
    And so, when you have 10, 12, more than that, development 
agencies, it is very hard for the administration, it is very 
hard for our country, to compete with China, which is a top-
down, authoritarian model, which can just decide which path 
they want to go and everyone goes in that direction.
    So creating more agencies and more bureaucracies, I don't 
think anyone wants to do that. But, unfortunately, that has 
been done in the past, because it is so difficult to try to do 
any kind of serious foreign aid reform. And I know this 
committee has worked on that issue and hasn't been able to get 
there because it is so difficult. And so, again, my fear is 
that we would create another one that would make it more 
difficult.
    And so you can streamline or combine certain agencies at 
one point, but there does need to be, I believe, more 
centralization in terms of our foreign assistance.
    Mr. Yoho. I agree.
    Mr. Kamphausen?
    Mr. Kamphausen. Very quickly, I think we want to make sure 
that we don't convey to countries that desperately need 
development aid that the U.S. is opposed to aid for them 
because it comes from China.
    I will share an example.
    Mr. Yoho. Agreed.
    Mr. Kamphausen. Each year, I have the privilege of briefing 
a delegation of Pakistani generals that comes to our National 
Defense University, twice this past year. And on both 
occasions, we have talked about the China-Pakistan Economic 
Corridor, which is an important part of the Belt and Road, $42 
billion worth of planned investment in four types of projects, 
mostly energy. And Pakistan is desperately in need of more 
energy.
    And it came out in the course of the discussion, one of the 
generals finally said, it sounds to me like your problem with 
CPEC--and I don't have a problem with CPEC, but--your problem, 
America's problem with CPEC is that it is Chinese in origin. 
And so your strategic competition with China is making us a 
bill payer if you oppose it too strenuously.
    And so we need to be very clear that the penalty is not 
paid by countries that desperately need the development aid.
    Mr. Yoho. I appreciate that. And, you know, the thing is it 
is not against China, you know, because I wish them the best of 
luck, but it is not at our expense.
    And I am going to go to Mr. Ted Deutch from Florida.
    Mr. Deutch. Thank you, Mr. Chairman.
    Thanks to the witnesses for being here.
    Mr. Stivers, you said that President Xi is expanding 
China's presence on the world stage through coercion and a 
charm offensive.
    So I would like the three of you to talk about that, One 
Belt, One Road and how it works, how the investments lure 
countries in--they welcome the investments, obviously--and how 
that turns into coercion. How does that actually play out?
    Please, Mr. Runde.
    Mr. Runde. Thank you.
    Let me just first say that every country I visit in Asia, 
they want more America, not less America, to your point.
    I would just make one other point, and then I will respond 
to your question, Mr. Deutch, in that I think there are fewer 
and fewer poor countries in Asia. If I think about this 
subcommittee's footprint and when you think about countries, as 
I said, this is not your grandparents' Asia. And so, over the 
next 10 years, you are only going to go have one or two or a 
handful of countries eligible for IDA, meaning the softest 
loans from the World Bank.
    And so what that means is that the kinds of things that 
they want from the United States and from the rest of the world 
aren't going to be traditional foreign aid. There are going to 
be pockets of poverty in those countries, but, in many ways, 
those countries ought to be able to fund and finance much of 
the basic human needs.
    And I think that is one of the reasons you have seen the 
uptake of things like the Asia Infrastructure Investment Bank. 
Every Member of Congress I have ever met knows what the Asia 
Infrastructure Investment Bank is. They all know what it is, 
and they don't like it. I don't necessarily like it either. But 
it reflects, I think, the fact that--what I say is that, if we 
don't meet the hopes and aspirations of countries, they will 
take their business to the Chinese. And I think the hopes and 
aspirations of countries in Asia are changing and evolving, and 
we need to change with their hopes and aspirations. And we 
should really----
    Mr. Deutch. I am sorry. Since you brought it up--we will 
get back to this if we have time. But since you brought it up, 
let's talk about the Asia Infrastructure Bank.
    Mr. Runde. Yes.
    Mr. Deutch. So there is this investment bank that has been 
created. Most of our allies, our European allies----
    Mr. Runde. Have joined.
    Mr. Deutch [continuing]. Have joined. We have not. So I 
understand that people tell you they don't like it, but was 
that a wise choice, does it continue to be a wise choice, for 
us to not be a part of that?
    Because when you talk to the Chinese, they will tell you 
all they are trying to do is make these investments to help 
develop the area.
    Mr. Runde. I think that we ought to be strengthening the 
institutions that we built as a result of--in the rule-based 
international order of things like the Asian Development Bank. 
My view is that we ought to be strengthening the Asian 
Development Bank and strengthening our bilateral instruments 
first.
    I have a very hard time imagining that any administration 
would come to the U.S. Congress and ask for several hundred 
million dollars to put into a Chinese-led initiative. I have a 
very hard time imagining that it would even be politically 
feasible. I am not necessarily sure I would want to do that 
either. I would rather work on a whole series of other things 
first before even contemplating that.
    And regarding your question regarding One Belt, One Road, I 
think that it goes to my point about meeting the hopes and 
aspirations. It is actually a good idea. If you actually can 
cut the travel time across the Eurasian land mass, this is a 
great accomplishment. It is a good thing to do.
    I don't think we can stop the One Belt, One Road, nor 
should we try to. But what we should be trying to do is 
influence the soft infrastructure around the One Belt, One 
Road. I have written a report that I am submitting for the 
record about the soft infrastructure of the One Belt, One Road, 
things like, how do we use the European Bank for reconstruction 
and development, how do we use the Asian Development Bank, the 
two regional development banks that will most--we should have 
them be financing infrastructure projects along the One Belt, 
One Road.
    We should work to have--there was a discussion about--we 
didn't talk a lot about this, but there is an obscure topic 
but, I think, an important topic around the issue of government 
procurement. Most of the decisions about buying railroads or 
building bridges or building airports or power are often in the 
hands of government procurement officers in developing 
countries. And I know this seems like an obscure topic, but it 
relates to American jobs and American business. Just bear with 
me. I know it is a little obscure. But, in essence, we have 
told developing countries for 50 years to use one rule book 
that has go with the lowest bid and lowest bid procurement. And 
if we go with lowest bid procurement, because they are the 
cheapest, the Chinese are winning on low-bid procurement.
    In the last 5 years, we have been able to change the rule 
book at the World Bank, which is the de facto set of standards 
for procurement in the developing world, to use a concept 
called lifecycle cost. It is the kind of thing you use when you 
buy----
    Mr. Deutch. Right. And I appreciate that, but I don't have 
a whole lot of time. But I appreciate that.
    But I want to ask, the soft infrastructure and changing the 
rules, we are way into the weeds. Big picture? Big picture, 
China is making massive infrastructure investments, and the way 
you describe it, it looks like we are trying to sort of pick up 
the scraps.
    I mean, Mr. Stivers, what do the Chinese think that they 
are getting from it? And how do they turn those investments 
into political power?
    Mr. Stivers. China is using--again, they are using their 
charm offensive with OBOR, with these projects, but they are 
also using economic coercion after that. You see this in all 
places in Asia. Some of the democratic openings that have 
happened in the region, whether it is in Burma or Sri Lanka, 
there has been a direct China component to that, where 
countries have responded negatively and there has been backlash 
to certain projects.
    We have talked about Sri Lanka. I think the chairman 
mentioned it in his statement. In Burma, the Myitsone Dam was a 
huge dam that was built as--I think it is part of OBOR now, and 
I think China puts everything as part of OBOR in terms of its 
projects. But they didn't do any kind of environmental or 
social assessments. It is deeply unpopular in the country. This 
a country and a people, a proud people, that don't want to be 
dependent on China.
    And so you have countries where there is significant 
popular backlash, if not the governments, all over the region.
    Just real quick on AIIB, I really don't think the U.S. 
should be joining it, first of all, because we don't have a 
couple hundred million to contribute to it. And, second of all, 
we don't know if AIIB is going to be an instrument of Chinese 
foreign policy yet. We don't know if they are going to have 
high standards of development yet. And I think being on the 
outside and holding our membership as a possibility while other 
countries are inside of it trying to maneuver is a better place 
for the United States to be in regards to AIIB.
    And just, third of all, about that, AIIB has only lent $2 
billion, which is a small number compared to as much financing 
is going on. And China still retains 26-percent voting power in 
AIIB, and I am not sure we want to be a part of that yet.
    Mr. Chabot [presiding]. The gentleman's time has expired.
    Mr. Deutch. I appreciate it. Thank you, Mr. Chairman.
    Mr. Chabot. Thank you.
    The Chair will recognize himself, the acting Chair, at this 
time for 5 minutes.
    The President just got back from an almost-2-week trip to 
the region of the world that we are discussing here this 
afternoon. And he once again used a term that I wouldn't 
necessarily use, but I am not President, so he gets to say what 
he wants, but this, kind of, ``America first.'' And he said, 
well, all countries consider themselves first.
    And, clearly, China's attitude is really ``China first.'' 
And you gentlemen testified to that earlier when you talked 
about what you get when you enter into one of these mega-
projects or even a smaller project with the Chinese. You do get 
Chinese money, but you get Chinese workers and you get a 
Chinese asset and, overall, Chinese profits. And they are 
pretty much there probably forever, for the most part.
    Do the other countries, by now, do they realize, you know, 
what they are getting when they jump into bed with China on one 
of these mega-projects?
    Mr. Stivers, do you want to----
    Mr. Stivers. I think some do, some don't. And we talk about 
this a little bit in the U.S.-China Commission, our annual 
report.
    Some countries, like Thailand, are more economically 
advanced. It is a strong middle-income country, and they are 
able to push back on China on a lot of these projects. But you 
have a country like Burma, who doesn't have the expertise to 
analyze a lot of the details of these very complicated 
infrastructure deals. They don't know what they are signing up 
for, in terms of these loans that they are getting. And I think 
that certain countries know what they are getting into, and 
they negotiate in a very tough way with the Chinese. Others 
don't have the leverage to push back, in many cases.
    And so I think that some of the work that USAID does to 
help these countries improve their governance, improve their 
capacity to analyze economic deals--a lot of this, I guess we 
call it soft power, but it is some of the really good work that 
we do--can really help these countries push back on things that 
will harm their country in the long term.
    Mr. Chabot. Thank you.
    Let me go to another area here. TPP, unfortunately, became 
a campaign issue in the last race. And both sides--and I don't 
want to get too political here, but the Democratic candidate, 
in particular, who had a history of being basically pro-TPP, I 
think because of Bernie and a lot of his supporters ended up 
getting dragged way to the left on this and ended up being 
against it, and Trump was pretty much always against it, I 
think. So you had both major candidates being against it. And I 
think, to some degree, we have marginalized ourselves as a 
result of that, and now China is much more in the driver's seat 
because of our absence to affirm that.
    What can we do about it at this point? I know the President 
has talked about how he doesn't believe in regional trade 
agreements, he wants bilateral trade agreements. And I have met 
a number of times with some of his people about that and their 
optimism for accomplishing that. But are there any suggestions 
you gentlemen would make to the administration on how they can 
actually move forward with that, if that is their philosophy?
    Mr. Kamphausen?
    Mr. Kamphausen. Very quickly, in my own discussions with 
representatives from Japan's METI, I think they think in very 
sophisticated terms about: Whatever we do in terms of our 
bilateral deals, have them being TPP-ready for the future point 
at which, you know, common sense might prevail and we will see 
the need to return to a multilateral setting.
    So the Japanese even use the term ``docking station,'' 
where a bilateral agreement could then, if you imagine a space 
shuttle kind of setting, actually merge back into what TPP has 
become. And I think there is a lot of value to that. We don't 
want to sacrifice the standards; we want to have TPP-level 
standards. And so, at that future point, they can potentially 
be joined back in.
    Mr. Chabot. Mr. Runde?
    Mr. Runde. Thank you.
    I would encourage this subcommittee to hold hearings on 
prospects for a U.S.-Japan bilateral free trade agreement. I 
think to the point Mr. Kamphausen was making, I think we need 
to think about Lego building blocks for coming back. I would 
like to see us return to something like a TPP.
    And I think, as well, we need to take a look at trade and 
investment agreements across Asia, and we should start with our 
close allies and emerging economies of ASEAN. If it sounds a 
little bit like TPP, well, maybe there is something to that.
    Mr. Chabot. Thank you very much.
    And I am almost out of time here, but let me raise one--and 
I will toss this to you, Mr. Stivers, since you brought it up. 
And that is Taiwan.
    I happen to be one of the founders of the Congressional 
Taiwan Caucus and have been there 10, 11 times, something like 
that, over the years, very involved with Taiwan. And they have 
been interested, obviously, in a bilateral trade agreement with 
us or being in TPP, or, even prior to U.S. discussing TPP, they 
want to be more involved in this. And, obviously, the PRC does 
everything possible to suppress Taiwan because they consider 
them a territory and all the rest.
    What can we do, what should we do, to make even closer our 
relationship with one of our key allies in the region, Taiwan, 
whether it is trade or other things? I know getting into the 
military is probably beyond the confines of this hearing, but 
anything you would like to say relative to Taiwan.
    Mr. Stivers. Absolutely. I mean, Taiwan has so much 
resources, so much expertise, when it comes to global health, 
when it comes to development. And they have this new southbound 
policy, so it is in their interest to diversify away from their 
dependence on China. So you have a confluence of interests 
here. And, of course, the Southeast Asian countries, they want 
Taiwan's economic activities. And so you have a confluence of 
interests here.
    And I think that--I didn't include this in my testimony 
because I haven't really thought this out in too much detail. 
But if there are ways, consistent with the Taiwan Relations 
Act, for our entities, for our Government to help Taiwan join 
some of these--obviously, the international organizations, 
which, you know, you are a big supporter of Taiwan joining, but 
if we can do some more things bilaterally to help them do what 
they are already trying to do. I think they need some help 
diplomatically with some of the inroads in these countries. 
Again, they have so much to offer.
    And could I mention TPP for a moment?
    Mr. Chabot. Yes.
    Mr. Stivers. As a member of the Obama administration, I was 
always concerned that TPP was not enough as an economic 
component of the Asian rebalance. You know, whether you are for 
it or against it, the Asia rebalance needed a better economic 
component to it.
    And, also, not every country in Southeast Asia liked TPP. A 
lot of the countries were worried about losing market share to 
Vietnam. And so this is not something everyone in Asia wanted 
except for China.
    But more groundwork needs to be done in the region so that 
these countries have the standards where they are able to enter 
into a high-standard agreement. Vietnam needs a labor sector. 
They don't have that. They don't have free association there. 
There are the beginnings of that now, but not at a point where 
I think we can connect them to our economy and meet the high 
standards that TPP set out.
    Mr. Chabot. Thank you very much.
    And my time has expired.
    Mr. Bera, if you would allow me just a couple seconds here 
to say one last thing. I am going to give you additional time 
too. It is not like there are others champing at the bit to get 
into this.
    But I would also just put in a pitch here for legislation 
that I have introduced, along with some of my Democratic 
colleagues, and that is the Taiwan Travel Act.
    Right now, the high leadership of Taiwan--President, Vice 
President, Foreign Minister, Defense Minister--cannot come to 
the United States. One of our strongest allies. They can 
transit through the U.S., but we can't meet in our Nation's 
capital, for example, with others that are--essentially, it is 
a de facto country. It is not a country in name, but it 
functions as a country. It has for a half-century. And it is a 
democracy. They freely elect their officials, unlike the PRC.
    The PRC can come here. They get red-carpet treatment. Our 
close ally, the President can't come here. Twenty-six Members 
had to fly up after votes some years back to meet with 
President Chen Shui-bian in New York City after votes one 
evening, and we got back, like, 3 o'clock in the morning, 
because we couldn't meet with him here in our Nation's capital.
    It is disgraceful. It is a slap in the face to our close 
ally. And we ought to change that, and we need to pass that 
legislation.
    Thank you. And I am off my rant now. And I will now 
recognize the gentleman from California for as much time as he 
wants.
    Mr. Bera. Well, thank you, Mr. Chabot.
    And thank you to the witnesses. I am sorry I missed your 
opening statements. I had a conflict.
    But if I just think about the post-war, post-World War II 
world order, it was a U.S.-led world order. And, you know, in 
many ways, the U.S. leadership, in helping rebuild Japan, 
helping rebuild Europe, you know, answering the call to protect 
South Korea, and helping rebuild South Korea, and the way we 
approached the world in the last 70 years made the world a more 
prosperous place, lifted a lot of people out of poverty, and 
made those 70 years much more peaceful than the prior 70 years, 
when two world wars and endless conflicts occurred.
    So for us to start to withdraw from the world is a big 
mistake. And, you know, Mr. Chabot touched on pulling out of 
TPP. As a Democrat that supported the deal, I do think in our 
lifetime this potentially is our biggest foreign policy 
blunder. Because when we think about trade and engagement, it 
is not just about commerce and economic activity; we are also 
thinking strategically. And that is very different than how the 
Chinese necessarily think about this.
    We think it is a good thing to help other countries develop 
their infrastructure, develop values, intrinsically, within 
their own country, of what democracy looks like. It does create 
competitors for us, but that is not necessarily a bad thing 
either, because it also creates markets for us to sell our 
goods and services.
    The next 70 years may be a slightly different world order. 
It may not be America going alone. And I actually think it 
won't be an America alone. It will be America working with 
partner nations that share similar values of democracy, of free 
markets, of opportunity, of human rights, working together.
    And, you know, I was in Japan a few weeks ago at the Mount 
Fuji Dialogue, and we were talking about that. And, you brought 
up, you know, how do we preserve TPP? One thing that we 
discussed with, you know, Prime Minister Abe, as well as the 
Diet members, they all get that they are going to have to keep 
moving forward. And we have seen the TPP 11 countries moving 
forward in this past week. But they also very much want the 
United States to reengage.
    And there is a clear message, and, you know, if any of 
those TPP 11 countries are watching or listening, keep that 
deal intact. Keep as high standards as possible intact. Because 
I have to believe, 2 years from now or 4 years from now or at 
some point in the near future, we will realize that, you know, 
we have to do business with some of the most vibrant economies 
in the world. Our businesses, our farmers, they are all 
realizing this very rapidly. And, you know, they have to talk 
to their workers, they have to talk to the folks here back 
home.
    By losing those markets, it doesn't mean those jobs are 
coming back here. It means we are going to have trouble selling 
our goods and services there. Once we lose market access, it is 
very hard to get that market access back.
    So we do have to have a real conversation about trade and, 
you know, the impacts of trade here domestically but also the 
fact that 95 percent of the world's consumers live outside of 
the United States.
    I would put our workers up against anyone else's workers, I 
would put the quality of our products up against the quality of 
products that, you know, China is making, and we will win. And 
we shouldn't be afraid of that competition, as long as it is a 
fair playing field.
    I also am very critical of how China approaches things. 
Where we approached it in a benevolent way, wanting to lift 
those other countries up, China approaches investment in these 
other countries in a very China-centric way.
    You know, there was a Member of Congress who was in 
Thailand recently and, you know, was traveling on a beautiful, 
brand-new road in Thailand and mentioned to the cab driver, 
``Hey, this is a great road.'' And, you know, the cab driver 
said, ``Yeah, the Chinese built it.'' And he said, ``Oh, you 
must feel great about it,'' and he said, ``No. You know, they 
came here, they brought their workers, they built the road, and 
they left.'' They didn't do anything to build that 
sustainability, to help Thailand build--and that is a 
fundamental difference in how we engage in the world and how 
the Chinese engage in the world. And, you know, those Asian 
nations recognize that. So it is incredibly important.
    You said I could go on as long as I wanted.
    So I just--I think it is incredibly important. I get we 
have domestic issues that we have to address here. We have a 
lot of folks that are being left behind. But it is incredibly 
important for us not to withdraw from the world and to stay 
engaged in a different way.
    You know, if there were, you know, one or two things that 
we as Congress ought to focus on, given the current political 
realities right now, you know--and maybe we will just go down 
the line--to not necessarily counter One Belt, One Road, 
because I also think the Asian nations know they have to do 
business with China, and they don't want to be considered a 
pawn in between China, but to offer an alternative to One Belt, 
One Road, what would those things be?
    And maybe we will start with you, Mr. Runde.
    Mr. Runde. Thank you, Mr. Bera. I broke my neck from 
nodding my head in agreement with everything you said. Thank 
you very much for your comments.
    Sir, I think that this subcommittee has, I think, an 
opportunity to use its platform to--I think this has been a 
very important conversation. I really appreciate you all 
convening this. I think that having--every country I go to, 
they want more American engagement, not less American 
engagement.
    The second thing is I think that we need to work as closely 
as possible with our allies. I agree with you, Mr. Bera. I 
think our first conversation in Asia should always be with 
Japan, a great ally, who wants to work with us on these issues. 
Obviously, we always want to work with Australia, you know, who 
has been with us in every conflict since World War I, and then, 
of course, India and South Korea and Taiwan, a great nation as 
well. So I think we have lots of friends, and we should use 
them.
    The other thing I would just say is that the world is not 
going to wait on us. When we have fights, internal fights, 
between the Congress and the executive branch on things like 
the IMF quota reform, which is an obscure topic, the Chinese 
said, ``I have $2 trillion in the bank. I am going to start my 
own bank.'' The AIB was a direct result of our disagreement in 
the United States on the obscure topic of IMF quota reform.
    They will not wait for us. If we don't meet the hopes and 
aspirations of countries, they are going to turn to China. And 
it is not necessarily because they want to; because it is the 
only game in town. So we have to offer a counter-narrative and 
counter-alternative.
    A mix of that are things, yes, like trade. Like I said 
earlier, I think we should be beginning a U.S.-Japan free trade 
agreement discussion. I think that is a start. But I think we 
should look at other allies and how do we deepen our trade and 
investment relations. Let's start with on a bilateral basis, 
given that that seems to be the Trump administration's 
preference for the moment.
    But then we need a strengthened OPIC. We need a stronger, 
larger OPIC. We need to strengthen USTDA. We need a functioning 
Ex-Im Bank. It absurd that it is not fully functioning.
    I will stop there, sir.
    Mr. Kamphausen. Well, I, too, agreed, Mr. Bera, with almost 
everything you said, with perhaps one amplification. The 
Chinese absolutely think in terms of Belt and Road and their 
broader set of investment and development initiatives as having 
a strategic orientation. The Chinese are intent to avoid direct 
confrontation with the United States, on the one hand. On the 
other, they are also equally intent on building their own 
comprehensive national power in ways that would, at a future 
point, allow them to challenge us.
    So the first point is to absolutely understand that we are 
in a strategic competition with China now and to behave 
accordingly.
    The second is that we can sometimes, in our system, take 
that first point and, as a policy response, blame China for 
what it has accomplished. And this plays very poorly in the 
region. It sounds a lot like sour grapes and a country that is 
in a great power decline. And so we need to pair a constructive 
message with an accurate assessment about the competition that 
we are in.
    And then the third point is, my two colleagues who are 
experts in the field have talked about the institutional 
streamlining that we can and need to do in order to make our 
delivery of development and investment aid more effective, and 
I think those make a lot of sense.
    And the last point is just an observation. We are still 
early in the process of what China is becoming. And to the 
point about the cab driver observing that the Chinese had done 
it and left, in a broader sense, there are still a lot of 
questions about Chinese staying power once they have initiated 
and completed projects, or even not completed projects. And so 
there is an opportunity for us there, as well
    Mr. Stivers. I would say that I think strategic competition 
is the right frame for China these days. I mean, we talked 
about a responsible stakeholder, and we tried to get China to 
be a better player and to work better with international 
institutions through the years. They are pursuing their own 
interests, and they are not going to deviate from their own 
interests, no matter how much we want to try to influence them 
to go a certain direction.
    And so, understanding that, it is a strategic competition, 
and we have to recognize that. And we have to make sure that 
what we do best, which I think is development. USAID is the 
preeminent development agency in the entire world. We do global 
health better than anyone. We do infectious disease better than 
anyone. We do education, we do food security, we do disaster 
relief better than anybody. Humanitarian assistance. Nobody can 
compete with the United States on these things.
    But we don't have the resources to do them at a high level, 
so we are not even funding what we do best. We don't need to 
start building infrastructure in Asia. The U.S. doesn't need to 
do that. We should support the institutions that do do that. 
And Japan and Korea and others, the Asian Development Bank in 
particular, they need to be well-resourced, and they haven't 
been.
    Mr. Chabot. Thank you.
    The gentleman's time has expired.
    The gentleman from California, Mr. Sherman, is recognized 
for 5 minutes.
    Mr. Sherman. First, it is the Financial Services Committee 
that decided to have 20 rollcall votes just as this group was 
meeting.
    Second, I want to make the point that this is not a zero-
sum game. We want people in the world to live better. 
Development is good, and if China will make that happen, that 
is helpful. But China is not for really giving aid. China is 
selling infrastructure on favorable financing terms. That isn't 
aid; that is loans.
    And if the projects are not helpful to the country's 
economy, it is a lose situation for the country. And if the 
project is so bad that the country can't find a way to pay the 
debt, then it is a lose-lose situation for both the Chinese 
banks and the developing country.
    From a standpoint of our global relations, trade is good. 
But from the standpoint of our economy, trade is good when it 
is balanced or even favors us in the trade balance.
    I think it was my first quarter here back long ago--I had 
hair, I was new--and the USTR testified that if we could sign 
an agreement that increased our exports by a billion and 
increased our imports by $2 billion, that would be great 
because it would be $3 billion of additional trade. That is not 
the policy we should have now.
    Looking at China's Road and Belt, you know, some of these 
have had setbacks, both financial and logistical. It will be 
interesting to see how viable it is. Second, we need to see 
whether it hurts our interests. It may hurt our national 
security interests if China is obtaining naval bases, in 
particular, or bases from which they could do intelligence 
gathering. Third, how is this all going to be financed? It is 
not aid, it is sales, and seems to be more analogous to the 
Import-Export Bank than to USAID, maybe halfway between OPIC 
and the Export-Import Bank.
    So how can we deal with infrastructure? First, we have the 
multilateral development banks, including the World Bank and 
the Asian Development Bank. We have our direct foreign 
bilateral aid. I have mentioned OPIC, which doesn't really cost 
us much compared to what it is able to finance but exists to 
help development as much as it does to be an arm of our 
economy. And then the flip side of that is the Export-Import 
Bank, which is primarily focused on building jobs in the United 
States but also finances infrastructure and development.
    And then we can do joint ventures with others in the--what 
is the new term?--Indo-Pacific region. I am going to have to 
learn how to pronounce that quickly.
    I should note that our annual funding of OPIC and the Asian 
Development Bank is about $100 million each. In contrast, China 
is doing several billions of dollars. Also, our bilateral 
foreign aid to Asian countries is not large. It was $1.3 
billion for South Asia and East Asia and a similar amount if 
you look separately for Afghanistan, Pakistan. About half the 
aid goes to economic development, the other half for social 
development, health, education.
    And I will want to look at aid in particular areas. And I 
will kind of preview the questions, and then I will ask them, 
believing that I have not only an opening statement but time to 
ask some questions.
    I will want to look at Pakistan in the sense of whether an 
appropriate amount of our aid is going to the non-Urdu-speaking 
areas, particularly Sindh; will want to ask whether Burma 
should be getting any aid of any kind, given their treatment of 
the Rohingya. Speaking of the Rohingya, are we doing enough to 
help Bangladesh deal with the--I believe it is 500,000 
refugees.
    So let me first ask Mr. Stivers, are we doing enough to 
make sure that a proportionate part of our aid in Pakistan goes 
to Sindh? I realize you are no longer getting a paycheck 
focused on that, you have left government, but I will still ask 
you the question.
    Mr. Stivers. I will have to defer the Pakistan question. 
Pakistan is not in my wheelhouse. I apologize for that.
    Mr. Sherman. I understand.
    Do either of the other two witnesses--then that will be a 
question for the record for whoever wants to respond.
    And let's--who wants to respond to the issue, I know we not 
giving much aid to Burma, but should we be giving any, given 
their treatment?
    Mr. Stivers?
    Mr. Stivers. Yeah, I was hoping I wouldn't be asked that 
question today, because it is--I worked at USAID. I was the 
Assistant Administrator of the Asia Bureau, and we worked very 
hard on the democratic reform that we had there. And we spent a 
lot of money empowering civil society in terms of running the 
election there. Very proud of the steps that country had made. 
It is extremely disconcerting, the issues that have happened 
with the Rohingya and the ethnic cleansing or genocide or 
whatever the appropriate term is.
    I think that the administration has taken some real steps 
and put some real resources into helping that refugee community 
in Bangladesh. I can't think of a worse country for refugees to 
go to than the most densely populated, one of the poorest 
countries in the world. And there is no question that 
Bangladesh does not have the capacity to handle this kind of 
influx of people. I don't think you can think of a higher 
number that Bangladesh would need to improve conditions for 
these people there.
    In terms of----
    Mr. Sherman. Does anybody have a recommendation as to 
what--I call it a supplemental appropriation. Obviously, it 
wouldn't be a separate bill. But how much more should the 
United States be giving to Bangladesh to focus on the refugee 
issue? Does anybody have an opinion?
    Mr. Stivers. I don't think Congress can come up with a high 
enough number, to be honest with you.
    Mr. Sherman. Well----
    Mr. Stivers. I think as much as Congress could do. Because 
the needs are infinite.
    Mr. Sherman. I understand.
    Mr. Stivers. But----
    Mr. Sherman. I want to go on to Sri Lanka, what examples 
where we have a limited return on Chinese infrastructure 
investment, such as the seaports, related to debt problems. 
What lessons should we learn from some of the financial 
difficulties of the seaport development problem in Sri Lanka? 
Does anybody have any focus on that?
    Mr. Stivers. I mentioned earlier that the two big 
democratic breakthroughs that have happened in the Asia-Pacific 
region have been in Burma and Sri Lanka over the last few 
years, and both have a direct China component to it. Two 
countries where there has been a popular backlash to Chinese 
investment on projects, on major OBOR--they would call them 
OBOR; we call everything OBOR now--but two major Chinese 
projects. And I think Burma opened up their country because 
they didn't want to be dependent on China. And I think Sri 
Lanka was a similar situation.
    And I think that goes to show the power of the backlash to 
the Chinese on projects. And I think that is important to 
watch. And I think it is a sense of how much concern there is 
in the region about dependence on Chinese.
    Mr. Sherman. Uh-huh.
    The flip side of this is the effect it could have on China. 
The sovereign debt of more than half of the countries China is 
targeting under the One Belt, One Road program are not rated as 
investment-grade securities. Chinese lenders are nevertheless 
extending tens of billions of dollars of credit toward the One 
Belt, One Road projects.
    If those projects fail or if there is a default on the 
loan, could there be an effect on Chinese banks that is 
significant enough to affect the U.S. economy? And, in general, 
does China guarantee its banks against loss on these loans?
    Mr. Stivers.
    Mr. Stivers. Yeah, in terms of the China Development Bank, 
they do guarantee their assets. And, you know, China has lost a 
lot of money on these projects. Venezuela is a great example. 
China is losing a lot of money with the situation there in 
Venezuela.
    But, you know, authoritarian governments, this is a state-
driven enterprise. So they are not trying to make profits, 
necessarily. Sometimes they do, sometimes they don't. They have 
foreign policy objectives and domestic economic objectives, 
which we talked about. Those are the priorities. And if they 
take a loss somewhere, they withstand it.
    Mr. Sherman. Uh-huh.
    I will just add a comment, because I know you will just 
be--on questions about southern Pakistan, you will be 
responding for the record. But the China-Pakistan Economic 
Corridor is the Pakistani component of the Belt and Road 
Initiative. It is seen in the Pakistan Sindh province as a 
strategic partnership between the Pakistani Armed Forces and 
Beijing to exploit Sindh's resources, particularly coal in the 
Thar region. And it causes a repression of local Sindhi voices 
of dissent against either the projects or injustices in 
general. And, of course, in Sindh, we have seen a number of 
disappearances.
    So, for the record, if you can give us some guidance on 
what our policy ought to be with, it seems, the Pakistani Armed 
Forces turning over resources from Sindh to China without any 
beneficial impact to local people.
    So I will wait to read your answer on that.
    I want to thank the chair for indulging me and will not 
mention the name of the chairman who delayed me for 45 minutes 
without consulting with Mr. Yoho.
    Mr. Yoho [presiding]. They are just not as--their etiquette 
is not as nice as ours here. No, I appreciate your input 
because you always come well-prepared, and I appreciate your 
input into that.
    We are about at the close, if you can bear with me for a 
few more minutes.
    You know, when we look at that ASEAN nations, that whole 
region, you know, we all know there are 630-million-plus people 
there, $2.5 trillion in trade, and we have pivoted our 
strategy, but it is time and we are seeing a pivot back.
    You know, as we traveled to South Korea, Taiwan, Vietnam, 
Hong Kong, Singapore, everybody was saying how bad it was that 
we pulled out of the TPP, and I reminded them that, you know, 
not that we can vote on it in the House, but the Senate wasn't 
going to pass it, and candidate Clinton said she was not going 
to approve it. I think President Trump did a very smart thing, 
getting rid of it early.
    And while we were over there, we were promoting FTAs with 
every country we went to--Vietnam. You know, of course, 
Singapore has a great one. South Korea has one. We mentioned it 
to Japan, all the other regions in there, Hong Kong and Taiwan, 
to have free trade agreements, to bolster our presence and the 
caliber--and the thing that people said that they want more 
than anything is rule of law--respect contracts, respect 
intellectual property. And that is what they are not getting 
when they see these other countries.
    And, you know, being with a construction background 
somewhat before I was a veterinarian, what I saw were a lot of 
buildings being built where people built shopping malls, you 
know, they built infrastructures, but they couldn't maintain 
them. And so I think your recommendation is--I applaud China 
for doing what they are doing. And I think we ought to tag 
along and build businesses there and pick up the pieces, as we 
do other investments in those.
    And my last question--and you guys can weigh in on this. In 
2016, about a quarter of OPIC projects were in Asia. Is this an 
appropriate allocation? And should OPIC be funding more 
investments in Asia?
    Mr. Runde?
    Mr. Runde. Thank you, Chairman.
    I want to first say I completely agree with you. We need to 
be thinking about our trade and investment relationships with 
all of our allies in Asia. I don't know, sir, if you were in 
when I said this earlier, but I encourage us to have a 
bilateral free trade agreement with Japan as well. And I hope 
this subcommittee will host a hearing on a bilateral free trade 
agreement with----
    Mr. Yoho. I think you will see a resolution coming up in 
the not-too-distant future.
    Mr. Runde. Thank you, Chairman.
    So I think that OPIC is one of our greatest tools. It is 
not well understood. I would like to see OPIC--we have written 
for the record a number of reports about OPIC and how to use it 
better.
    I certainly think that we should be spending at least 25 
percent in Asia. And I think, if we are thinking about--I think 
we have to look at Asia not only as an economic and business 
opportunity for the United States--and China looks at Asia as 
an economic and business opportunity for them. We should be 
doing the same.
    And I do think that we should have at least 25 percent of 
our portfolio of investments from OPIC in Asia. I do believe 
that is the case. I think we should be thinking about more, not 
less.
    Mr. Yoho. Anybody else?
    Mr. Kamphausen, you said that the Belt/Road Initiative is 
China's stimulus initiative, increases China's military 
footprint. It is a way secure China's periphery and a way to 
consolidate China's initiatives and investment. And I think it 
is a smart business move for them. But I just think, again, 
going back to Xi Jinping's comments after the 19th Congress, I 
think that shows their strategy.
    And, you know, with the ASEAN nations or any of the regions 
in that area that we decide to do FTAs, what I would see is a 
structure. And I had mentioned this, and I guess you guys 
mentioned it too, about: Have countries being able to plug in 
and out. You know, if we are in agreement, kind of like a Lego 
block model, where they plug in, and they just build upon that. 
And if a country where members say, you know, it is not 
working, you need to leave, they can be removed too.
    And I think that is something that we need to look at, as 
we revamp how we do foreign policy, how we do our trade 
agreements. And what I can assure you is there are going to be 
some strong initiatives coming out on economic growth and 
development aid, and the restructuring of some of these 
organizations to streamline them, or requesting more money when 
we roll these out to be put in there. Because this is an 
investment in our future, and we want to focus on national 
security, economics, trade, and cultural exchanges.
    Go ahead, Mr. Kamphausen.
    Mr. Kamphausen. If I may offer a quick comment since you 
raised the topic, it is clear that this is an experimental 
field for the Chinese as they think about how they secure the 
Belt and Road.
    Mr. Yoho. Yeah.
    Mr. Kamphausen. And there are at least three different 
models that they are thinking about.
    In Pakistan, they are essentially outsourcing the security 
problem. So they are funding the fielding of essentially a 
Pakistani Army division to secure the Belt and Road projects. 
That is one model. And it works. The Pakistani Army is an 
effective and coherent force, and so it makes sense in that 
context.
    The other two are perhaps a little more sketchy. One is to 
essentially take demobilized PLA troops, because China has been 
in the process over the last several years of demobilizing its 
armed forces--downsizing, I should say--taking those troops and 
then making them private security entities. And we understand 
the challenges we have had with that system. Imagine the 
Chinese trying to implement a coherent approach to that.
    The third is to look at even more hybrid forms of security 
and really imagine that the problems will sort themselves out 
and leave them to the industries or the companies that are 
imagining them themselves.
    My broader point is to suggest, if we were to think in a 
forward-looking way, consistent with your view that there are 
pieces that we might need to pick up and make sense of, a lot 
of this could go south. The Chinese bets about how to secure 
their own initiative might not work. They have not done this 
before. And there are potentially not obligations we might 
sense but there are opportunities that we might be in a 
position to respond to consistent with our own goals.
    Mr. Yoho. Go ahead, Mr. Stivers.
    Mr. Stivers. There are some major changes going on in the 
Chinese economy now. They are trying to rebalance their economy 
from going from this export-led dynamo to a consumption-
oriented economy. And I would argue that when they do these 
OBOR projects and they export these raw materials, this 
overcapacity, what that is doing is propping up these 
inefficient state-owned enterprises and delaying real reform in 
their economy.
    And I think that is really bad for the United States, 
because they are not opening up their economy to the United 
States, and that is why I don't worry so much about trade 
issues in terms of vis-a-vis China, because China is not going 
to sign some major trade agreement, they are not opening up 
their economy. And I think, by going down this road with the 
way they are implementing OBOR, it is delaying reform and it is 
delaying a lot of the needed reforms that their economy needs 
to make that would be good for China and the U.S. and the world 
economy.
    Mr. Yoho. One quick question, and then I have a statement. 
What funding levels would be needed for an effective 
development institution? Just real quickly.
    Mr. Runde. So I believe OPIC does about $4 billion a year. 
I would like to see it do double that amount. As I said 
earlier, we need to raise the credit card limit on OPIC, A. 
USTA does around $70 million a year in terms of what the 
Congress allocates, and I would double that.
    And then I think we ought to be thinking--so I would say it 
is not necessarily about additional--there are only marginal 
appropriations, but the Congress has within its power to, you 
know, put its foot on the gas in terms of giving additional 
authorities and strengthening these institutions that already 
exist.
    Mr. Yoho. Anybody else?
    You guys brought this up, and so I have to comment on it. 
China is new at this, in the development. They have been around 
for a long time as a nation, as a culture. We can't hold a 
candle to that. But the thing that we do have is 241 years of 
developing a nation, trade, and working in a market economy. 
And there are a lot of trials and tribulations that we have 
learned over 241 years. And I think it will work out well. We 
will not allow ourselves to be supplanted from the world stage.
    And I appreciate your input. I look forward to sharing our 
bill with you when they do come out and get your feedback on 
it.
    With that, this meeting is adjourned, and thank you for 
your time.
    [Whereupon, at 4:07 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
       [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
 
    The following documents, submitted for the record by Mr. Daniel F. 
Runde, William A. Schreyer Chair and director of the Project on 
Prosperity and Development, Center for Strategic and International 
Studies, are not reprinted here but may be found at: http://
docs.house.gov/Committee/Calendar/ByEvent.aspx?EventID=106635

        <bullet>  ``A New Development Agenda''
        <bullet>  ``A Path to US Leadership in the Asia-Pacific: 
        Revitalizing the Multilateral Financial Institutions''
        <bullet>  ``Closing Aid Programs in Middle-Income Countries: A 
        Big Opportunity''
        <bullet>  ``Development Finance Institutions Come of Age''
        <bullet>  ``English Language Proficiency and Development''
        <bullet>  ``Fixing Trade Facilitation: The Trillion-Dollar 
        Development Windfall''
        <bullet>  ``Global Infrastructure Development''
        <bullet>  ``Implementing the Forthcoming WTO Trade Facilitation 
        Agreement''
        <bullet>  ``Pay to Play Leadership: Why Investment in the 
        Multilateral Development Banks Is Critical to U.S. National 
        Security''
        <bullet>  ``Quality Infrastructure: Ensuring Sustainable 
        Economic Growth''
        <bullet>  ``Shaping the Asia-Pacific Future''
        <bullet>  ``The Clock Has Started on TFA Implementation''
        <bullet>  ``The Role of U.S. Soft-Infrastructure in Influencing 
        the Reconnecting of Asia''
        <bullet>  ``The WTO Trade Facilitation Agenda: 2015's Biggest 
        Development Opportunity''

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
                                 
                                 
                                 
</pre></body></html>
